September 17, 2001

DONNA M. PEAK
VICE PRESIDENT, FINANCE, CONTROLLER

RUDOLPH K. UMSCHEID
VICE PRESIDENT, FACILITIES

SUBJECT:	 Audit Report – Authorization of Funds for Construction Projects (Audit
          Report Number FA-AR-01-001)

This report presents the results of our audit of the authorization of funds for construction
projects at four Facilities Service offices (Project Number 00HA051FA000). This was a
self-initiated audit.

The audit found Facilities Service office personnel did not always prepare required
Decision Analysis Report modifications when transferring new construction owned
project funds between site and building investment categories. We view management’s
comments as responsive to our finding and recommendation. Based on the comments,
we revised the wording within the report to more clearly state that all 33 transfers
without Decision Analysis Report modifications were for transfers between site and
building investment categories. Management’s comments and our evaluation of these
comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Russ Barbee,
director, Facilities, at (703) 248-2107 or me at (703) 248-2300.



Billy Sauls
Assistant Inspector General
 for Business Protection

Attachment

cc: Richard J. Strasser, Jr.
    John A. Rapp
    John R. Gunnels
Authorization of Funds for Construction                            FA-AR-01-001
 Projects




                                    TABLE OF CONTENTS

Executive Summary
                                                    i

Part I


Introduction                                                          1


  Background                                                          1

  Objective, Scope, and Methodology                                   1

  Prior Audit Coverage                                                2


Part II


Audit Results                                                         3


  Facilities Generally Complied with Authorization Regulations        3

    Investment Category Transfers Not Properly Approved               3

  Recommendation                                                      4

  Management’s Comments                                               4

  Evaluation of Management’s Comments                                 5


Appendix. Management’s Comments                                       6





                                          Restricted Information
Authorization of Funds for Construction                                              FA-AR-01-001
 Projects


                                   EXECUTIVE SUMMARY
Introduction                This report presents the results of our audit of Postal Service
                            authorization and commitment procedures for new construction
                            owned projects managed by four Facilities Service offices. The
                            objective of the audit was to review compliance with
                            authorization procedures to determine any benefit to
                            deauthorizing funds before the end of a project.

Results in Brief
           Our audit determined the four Facilities Service offices we
                            reviewed generally adhered to current regulations governing
                            authorization and deauthorization procedures. We did not find
                            any benefit to deauthorizing funds during a project.

                            However, Facilities Service office personnel did not always
                            prepare required Decision Analysis Report modifications when
                            transferring new construction owned project funds between site
                            and building investment categories. During the review of
                            88 projects, with total authorizations of $356 million, we noted
                            that 33 of the 40 investment category transfers between site and
                            building did not have the required Decision Analysis Report
                            modifications. These 33 transfers totaled over $6.3 million.
                            Individually, the 33 transfers ranged between $3,500 and
                            $769,000.

                            Facilities Service office personnel were aware of the requirement
                            to prepare a Decision Analysis Report modification when
                            transferring funds between site and building investment
                            categories. However, they circumvented this regulation and
                            approved the transfer through a revised project authorization
                            form. In addition to not completing the Decision Analysis Report
                            modification, 24 of the 33 transfers, totaling over $4.1 million, did
                            not have a revised project authorization form approved by either
                            the area or headquarters as required. Therefore, we could not
                            determine that the area or headquarters knew of, or would have
                            approved, the transfer of funds into a different investment
                            category.

Summary of	                 We recommend the vice president, Facilities, in conjunction with
Recommendation	             the vice president, Finance, controller, enforce the requirement
                            to prepare a Decision Analysis Report modification when
                            transferring funds between site and building investment
                            categories.




                                                     i
                                          Restricted Information
Authorization of Funds for Construction                                          FA-AR-01-001
 Projects



Summary of                     Management agreed with our finding and recommendation.
Management’s                   They described their actions already taken and planned, to
Comments                       direct Facilities Service offices to comply with preparing
                               Decision Analysis Report modifications.

Overall Evaluation of          Management’s comments and actions were responsive to our

Management’s                   finding and recommendation.

Comments





                                                     ii
                                          Restricted Information
Authorization of Funds for Construction                                             FA-AR-01-001
 Projects


                                          INTRODUCTION
Background                     An authorization must be issued at the beginning of a new
                               construction owned project before the contracting officer
                               can expend funds for the project. PS Form 4209, Project
                               Authorization, lists authorized amounts for five major
                               investment categories: site acquisition, site support, building
                               design, building construction, and building support. At
                               project completion, an administrative and fiscal transaction
                               is executed to deauthorize any remaining project funds.

                               Prior to March 1999 Postal Service regulations required the
                               preparation of a revised project authorization form to allow a
                               percentage contingency for construction and construction
                               support after contract award. Any unused authorization
                               over the contingency required a deauthorization of funds to
                               reduce the total authorization for the project. Currently, the
                               new regulation, Postal Service Handbook F-66, General
                               Investment Policies and Procedures, allows the Postal
                               Service to authorize funds at the beginning of the project
                               and hold them throughout the project.

                               Postal Service policy requires a Decision Analysis Report
                               modification when transferring funds between site and
                               building investment categories (Handbook F-66C, Field
                               Investment Policies and Procedures, Section 8-6). A
                               Decision Analysis Report modification request is subject to
                               the same review and approval as the original report. For
                               example, for projects under $5 million, the Decision Analysis
                               Report modification request is approved by the respective
                               area vice president.

Objective, Scope, and          The objective of the audit was to review compliance with
Methodology                    authorization procedures to determine any benefit to
                               deauthorizing funds before the end of a project.

                               The scope included a judgmental sample of 88 new
                               construction owned contracts awarded between
                               September 13, 1997, and March 31, 2000, and with a first
                               authorization prior to October 24, 1997. To accomplish
                               our objective, we reviewed new construction owned
                               projects with total authorizations of $356 million at




                                                     1
                                          Restricted Information
Authorization of Funds for Construction                                             FA-AR-01-001
 Projects



                               four Facilities Service offices in Atlanta, Georgia; Columbia,
                               Maryland; Dallas, Texas; and Greensboro, North Carolina.

                               In completing our audit, we reviewed Postal Service
                               Handbook F-66, General Investment Policies and
                               Procedures, Postal Service Handbook F-20A, Accounting
                               Center Service Guidelines, and Publication 191, Investment
                               Policies and Procedures, which was effective through
                               February 1999. We interviewed Postal Service officials at
                               headquarters, national area offices, Finance, and Facilities
                               Service offices.

                               The audit was conducted from October 2000 through
                               September 2001 in accordance with generally accepted
                               government auditing standards, and included such tests of
                               internal controls as were considered necessary under the
                               circumstances. We discussed our conclusions and
                               observations with appropriate management officials and
                               included their comments, where appropriate.

Prior Audit Coverage	          During February 1999 the Postal Inspection Service’s audit
                               report, New Construction Owned – Largo Branch Facility,
                               (Case No. 198-1235428-FPA(2)), reported a finding related
                               to compliance with policies and procedures for project
                               authorizations and commitments. The review determined
                               that no deauthorization of funds had been requested to
                               reduce the total authorized funds for the project, even
                               though Postal Service Investment Policies and Procedures
                               required a revised project authorization form after contract
                               award to allow a contingency percentage for construction
                               and construction support.

                               The audit recommended the Facilities Service office
                               manager issue instructions to have deauthorizations and
                               decommitments processed in accordance with Postal
                               Service policy. In response to the recommendation,
                               Facilities management reviewed Publication 191 with all
                               their employees instructing them to reduce project
                               authorizations after award of the contract. However, in
                               March 1999 new regulations came into effect, which
                               removed the requirement to allow a percentage contingency
                               amount. The regulation now allows the Postal Service to
                               authorize funds at the beginning of a project and hold them
                               until the project is completed.


                                                     2
                                          Restricted Information
Authorization of Funds for Construction                                            FA-AR-01-001
 Projects


                                          AUDIT RESULTS

Facilities Generally           The Facilities Service offices generally acted in accordance
Complied with                  with current regulations for authorizing and deauthorizing
Authorization                  funds for new construction owned projects. These offices
Regulations                    reduce available funding levels to zero by deauthorizing at
                               the completion of a project in compliance with Postal
                               Service regulations.

                               Further, within the Postal Service, authorized funds cannot
                               be expended until they are budgeted. Each area is
                               allocated a budget, but they do not receive the full amount
                               of their authorization in the budget. Because reducing the
                               level of authorized funds during a project does not make
                               those funds available to be spent elsewhere, we found no
                               benefit from deauthorizing funds before the end of a project.

Investment Category            Although authorization procedures were generally followed,
Transfers Not Properly         we found that 33 of 40 transfers between site and building
Approved                       investment categories, totaling approximately $6.3 million
                               were made without a Decision Analysis Report modification.
                               Further, 24 of the 33 transfers, totaling approximately
                               $4.2 million had the revised project authorization forms
                               approved by Facilities Service office personnel instead of
                               the required area or headquarters. The 33 transfers
                               individually ranged between $3,500 and $769,000.

                               Postal Service regulations require a Decision Analysis
                               Report modification request be prepared and approved for
                               line item transfers of project funds between site and building
                               investment categories, even when no additional funding is
                               required. The requirement serves to control the flow of
                               funds for the project as set forth in the approved Decision
                               Analysis Report, and ensure that changes to investment
                               and operating plans are properly documented and
                               approved.

                               Facilities Service office personnel were aware of the
                               requirement to prepare a Decision Analysis Report
                               modification for the transfer of funds between site and
                               building investment categories, even with no additional
                               funding. However, we found in 33 of 40 transfers personnel
                               did not prepare Decision Analysis Report modifications
                               when required due to the pressure of performing other



                                                     3
                                          Restricted Information
Authorization of Funds for Construction                                               FA-AR-01-001
 Projects


                               tasks, other competing priorities, and contradictory
                               instructions.

                               One of the four Facilities Service offices did not prepare
                               modification requests in 5 of 13 instances because the
                               requirement was overlooked in the pressure of performing
                               other tasks. Seven of the revised project authorization
                               forms were not approved by the area. A second Facilities
                               Service office did not prepare Decision Analysis Report
                               modifications in 12 of 13 transfers between site and building
                               investment categories, based on verbal instructions from
                               Facilities headquarters in 1993 that contradicted program
                               requirements. A third Facilities Service office did not
                               prepare Decision Analysis Report modifications for 13 of
                               14 transfers reviewed because they had not treated the
                               requirement as a priority. The fourth Facilities Service office
                               made no transfers of funds between site and building
                               investment categories.

                               The 33 fund transfers, totaling $6.3 million represent less
                               than 2 percent of the total authorizations of $356 million for
                               the 88 new construction owned projects we reviewed. In
                               addition, over $3.1 million of the amount transferred was
                               never budgeted and spent during the project. Although the
                               amounts transferred were small, and not all transferred
                               funds were spent, without proper approval of a Decision
                               Analysis Report modification, a potential exists that
                               authorized funds could be budgeted for unnecessary project
                               upgrades. In addition, proper documentation of transfers
                               ensures that funds are project-related and not transferred to
                               other projects.

Recommendation	                We recommend the vice president, Facilities, in conjunction
                               with the vice president, Finance, controller:

                                  1.	 Enforce the requirement to prepare a Decision
                                      Analysis Report modification when transferring funds
                                      between site and building investment categories to
                                      ensure proper notification and approval of individual
                                      transfers.

Management’s	                  Management agreed with the recommendation of the report
Comments	                      and described their actions to date in directing Facilities
                               Service offices to comply with preparing Decision Analysis
                               Report modifications. To further reinforce compliance, a joint


                                                     4
                                          Restricted Information
Authorization of Funds for Construction                                              FA-AR-01-001
 Projects


                               memorandum from the vice president, Finance, controller,
                               and the vice president, Facilities, will be reissued describing
                               the requirement for Decision Analysis Report modifications
                               when transferring funds between site and building investment
                               categories.

                               Management’s comments noted that the draft report was not
                               clear in stating whether all transfers cited in the report were
                               for transfers between investment categories, which required
                               a Decision Analysis Report modification.

Evaluation of                  Management’s comments and actions were responsive to
Management’s                   our finding and recommendation. Based on management’s
Comments                       comments, the OIG revised the report to more clearly state
                               that the 33 transfers cited in the audit were for transfers
                               between site and building investment categories. Site and
                               building investment category transfers require a Decision
                               Analysis Report modification. Management is correct in
                               pointing out that transfers between individual site investment
                               categories or transfers between individual building
                               investment categories would not require a Decision Analysis
                               Report modification.

                               During our exit conferences at the Facilities Service offices,
                               we provided management with a list of all the transfers we
                               identified between site and building investment categories
                               that did not have the required Decision Analysis Report
                               modification. We will also forward a consolidated list of these
                               33 transfers to Facilities headquarters management.




                                                     5
                                          Restricted Information
Authorization of Funds for Construction                            FA-AR-01-001
 Projects


                    APPENDIX. MANAGEMENT’S COMMENTS





                                                     6
                                          Restricted Information
